Nos. 20-366

In the
Supreme Court of the United States
______________________________

DONALD J. TRUMP,
President of the United States, et al.,
Appellants,
v.
NEW YORK, et al.,
Appellees.
______________________________

APPELLEES’ MOTION TO DIVIDE AND ENLARGE ORAL ARGUMENT TIME
______________________________

AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
DALE E. HO*
125 Broad Street
New York, New York 10004
(212) 549-2693
dho@aclu.org

LETITIA JAMES
Attorney General
State of New York
BARBARA D. UNDERWOOD*
Solicitor General
28 Liberty Street
New York, New York 10005
(212) 416-8016
barbara.underwood@ag.ny.gov

* Counsel

*Counsel

of Record for Appellees
New York Immigration Coalition, et al.

of Record for Appellees
State of New York, et al.

Dated: November 12, 2020

INTRODUCTION
In accordance with Supreme Court Rules 21, 28.3, and 28.4, Appellees jointly
move to enlarge the total time for oral argument, and to divide oral argument time
between the two groups of Appellees. Appellees ask the Court to extend the total time
for oral argument to eighty minutes, and to divide the forty minutes for Appellees
evenly between the Government Appellees and the Private Appellees. This
enlargement of time is necessary to provide Appellees adequate time to address the
numerous issues presented in this appeal. The division of argument time will ensure
that each group of Appellees—first, a collection of States and other governmental
entities; and second, a collection of private advocacy organizations—can adequately
present its own distinct perspective and represent its own interests. Appellants do
not oppose Appellees’ motion.
STATEMENT
Appellees brought two separate lawsuits challenging a Presidential
Memorandum announcing an unprecedented policy of excluding undocumented
immigrants from the apportionment base used to allocate seats in the House of
Representatives among the States. Each lawsuit alleged that the Memorandum’s
policy violated, among other things, the Census Act, Article I of the Constitution, and
the Fourteenth Amendment.
In August 2020, the cases were consolidated, and a three-judge court was
appointed under 28 U.S.C. § 2284. In September 2020, the court granted summary
judgment to Appellees and entered final judgment. The court held that each group of

Appellees had standing based on the Memorandum’s likely effect in deterring
responses to the census, which in turn is likely to injure appellees in various ways
including but not limited to causing one or more States to lose federal funds and rely
on degraded census data needed for redistricting and many other important
government functions. On the merits, the court determined that the Memorandum’s
policy violates the Census Act. The court found it unnecessary to resolve whether
Appellees had standing based on the Memorandum’s express exclusion of persons
from the apportionment base, or whether the Memorandum’s policy violated the
Constitution. In October 2020, this Court agreed to hear the case on the merits, while
postponing consideration of jurisdiction.
On October 22, in a different lawsuit in the Northern District of California, a
three-judge court entered final judgment declaring the Memorandum unlawful. City
of San Jose v. Trump, ___ F. Supp. 3d ___, 2020 WL 6253433, at *49-51 (N.D. Cal.
Oct. 22, 2020). That court found that the plaintiffs there had standing because the
Memorandum will cause them to suffer imminent and likely apportionment harm
and loss of federal funds. Id. at *14-25. The court further concluded that the
Memorandum’s policy violated both the Constitution and the Census Act. Id. at *2649.
On November 6, in a third lawsuit, a three-judge court in the District of
Maryland entered final judgment invalidating the Memorandum. Useche v. Trump,
No. 20-cv-2225, 2020 WL 6545886, at *1 (D. Md. Nov. 6, 2020) (per curiam). The
Maryland district court determined that the plaintiffs there had standing because

2

ongoing implementation of the Memorandum was substantially likely to cause them
to suffer apportionment injury. Id. at *4-9. On the merits, the court concluded that
the Memorandum violated the Census Act. Id. at *9-14.
ARGUMENT
1. Each group of Appellees has distinct interests that warrant divided
argument. States and their political subdivisions, as sovereign or quasi-sovereign
entities, have unique interests that private parties do not adequately represent. This
Court has thus routinely divided argument when, as here, both a government entity
and a private party were on the same side. See, e.g., Fulton v. City of Philadelphia,
No. 19-123, 2020 WL 5882196 (U.S. Oct. 5, 2020) (mem.) (City of Philadelphia and
private respondent); Department of Commerce v. New York, No. 18-966, 139 S. Ct.
1543 (2019) (mem.) (governmental respondents and private respondents); American
Legion v. American Humanist Ass’n, No. 17-1717, 139 S. Ct. 951 (2019) (mem.)
(Maryland-National Capital Park and Planning Commission and private petitioners);
Tennessee Wine & Spirits Ass’n v. Blair, No. 18-96, 139 S. Ct. 783 (2019) (mem.) (State
of Illinois for amici curiae and private petitioner); Masterpiece Cakeshop, Ltd. v.
Colorado Civil Rights Comm’n, No. 16-111, 138 S. Ct. 466 (2017) (mem.) (State of
Colorado and private respondents).
Each group of Appellees has distinct perspectives and arguments on the
questions presented. For instance, while all appellees support their standing with
allegations that the Memorandum’s policy will cause some States to lose
representation in Congress, the Government Appellees and Private Appellees each
3

identified additional distinct injuries to support their standing: the Government
Appellees established that the Presidential Memorandum will cause them the unique
harm of degrading the accuracy of census data that they rely on for numerous
important government functions (J.S.A. 48a-59a), while the Private Appellees
established that the Presidential Memorandum will force them to divert resources
needed to run their organizations (J.S.A. 35a-37a). The Court should therefore divide
Appellees’ argument time.
2. Appellees also request enlargement of argument time, from sixty to eighty
minutes, in light of the distinct interests of the two Appellee groups; the number of
issues raised in the jurisdictional statement and Appellants’ opening brief, and the
national importance of the apportionment of the House of Representatives.
Appellants have advanced at least five distinct arguments regarding jurisdiction:
(1) the harm to the census count has become moot on appeal, (2) the case does not fall
with the exception to mootness, (3) the allegations of census-count harm were too
speculative, (4) there is a “mismatch” between the relief awarded and the censuscount injury, and (5) Appellees’ apportionment injury is too speculative. See J.S. 1218; Br. for Appellants 15-21. Appellants have also advanced numerous arguments
regarding the merits of Appellees’ statutory and constitutional claims. Moreover,
Appellees will need to address, as possible alternative grounds for affirmance, the
additional grounds for standing and for invalidating the Memorandum ruled on by
the California and Maryland district courts. In particular, those rulings further
demonstrate that Appellants here have standing given the Memorandum’s imminent

4

and likely harm to the apportionment of House seats and federal funds distributed
based on the decennial census’s total-population counts. And the ruling from the
California district court further confirms that the Memorandum’s exclusion of
undocumented immigrants who usually live here from the apportionment base
flagrantly violates not only the Census Act but also the Constitution.
In addition, all parties agree that the issue underlying the legal dispute—the
propriety of excluding undocumented immigrants from the census count used for
apportionment of the House of Representatives—has national importance. See, e.g.,
Appellants’ Mot. to Expedite 6-7; Government Appellees’ Mot. to Affirm 11, 16-17;
Private Appellees’ Mot. to Dismiss or Affirm 29, 32-35. This Court has previously
enlarged argument time in cases addressing matters of extraordinary public
importance. See, e.g., United States v. Texas, No. 15-674, 136 S. Ct. 1539 (2016)
(mem.); Michigan v. EPA, No. 14-46, 575 U.S. 902 (2015); Obergefell v. Hodges, 135
S. Ct. 1039 (2015) (mem.); National Fed’n of Indep. Bus. v. Sebelius, No. 11-393, 565
U.S. 1193 (2012) (mem.); League of United Latin Am. Citizens v. Perry, No. 05-204,
546 U.S. 1149 (2006); McConnell v. Federal Election Comm’n, No. 02-1674, 539 U.S.
911 (2003) (mem.).
Appellees therefore request that the Court enlarge the time for argument to
allow Appellants and Appellees forty minutes each, with Appellees’ time to be evenly
divided and with counsel for the Government Appellees to present first.
If the Court enlarges argument time but grants fewer than forty minutes to
each side, or if it declines to enlarge argument time, Appellees request that they be

5

given an opportunity to consult each other and inform the Clerk's Office of their joint
proposal for dividing time. See Stephen M. Shapiro et al., Supreme Court Practice,
§ 14.6, at 781 (10th ed. 2013).

CONCLUSION
For these reasons, Appellees jointly request that the Court enlarge the total
argument time to eighty minutes, with the forty minutes for appellees to be divided
equally between the Government Appellees and the Private Appellees, with counsel
for the Government Appellees presenting first.
Respectfully submitted,
AMERICANCIVIL LIBERTIES UNION
FOUNDATION
DALEE. Ho*
ADRIEL I. CEPEDA DERIEUX
DAVID D.COLE
CECILLIA WANG
DAVIN ROSBOROUGH
SOPHIA LIN LAKIN
THERESA LEE
MY KHANH NGO
SARAH BRANNON
CERIDWENCHERRY
dho@aclu.org

LETITIA JAMES
Attorney General
State of New York

�..J-�

VJ.-./

B� �DERWOOD*
Solicitor General
STEVENC. Wu
Deputy Solicitor General
JUDITH N. VALE
Senior Assistant Solicitor General
ERIC R. HAREN
Special Counsel
barbara.underwood@ag.ny.gov

6

ARNOLD & PORTER KAYE
SCHOLER LLP
JOHN A. FREEDMAN
R. STANTON JONES
ELISABETH S. THEODORE
DANIEL F. JACOBSON

MATTHEW COLANGELO
Chief Counsel for Federal Initiatives
ELENA GOLDSTEIN
Deputy Chief Civil Rights Bureau
FIONA J. KAYE
Assistant Attorney General

NEW YORK CIVIL LIBERTIES FOUNDATION
PERRY GROSSMAN
CHRISTOPHER DUNN
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION OF TEXAS
ANDRE I. SEGURA
EDGAR SALDIVAR
THOMAS BUSER-CLANCY
ACLU FOUNDATION OF SOUTHERN
CALIFORNIA
JULIA A. GOMEZ
PETER ELIASBERG
* Counsel of Record for Appellees
New York Immigration Coalition, et al.

* Counsel of Record for Appellees
State of New York, et al.

Dated: November 2020

7

